U.S. Department of Justice
Office of the Inspector General



          Improving the Grant Management Process for 

          Department of Justice Tribal Grant Programs 





                              January 2010 

Introduction

      One of the priorities recently identified by Department of Justice (DOJ)
leadership is supporting criminal justice activities in American Indian and
Alaska Native Tribal Country. In support of this goal, among other things DOJ
is accelerating its distribution of grants to Tribal communities.

       Therefore, in addition to the $50 million in appropriated grant funding
that DOJ awarded to American Indian and Alaska Native Tribes (Tribes) in
fiscal year (FY) 2009, DOJ also received $248 million in funding under the
American Recovery and Reinvestment Act of 2009 specifically targeted at Tribal
populations. Of that $248 million, $225 million is available for the
Correctional Facilities on Tribal Lands Grant Program, $20.8 million for Indian
Tribal government grants, and $2.8 million for Tribal Domestic Violence and
Sexual Assault Coalitions grants.1 In addition to these funds, Tribes are also
eligible to apply for several DOJ Recovery Act competitive grant programs
available to states, local governments, and other entities. Examples of these
grant programs include the Edward Byrne Memorial Competitive Grant
Program, the Assistance to Rural Law Enforcement to Combat Crime and
Drugs Program, and the State and Local Law Enforcement Assistance Program.
The Community Oriented Policing Services Office (COPS) and the Office on
Violence Against Women (OVW) administer additional DOJ Recovery Act grant
programs for which Tribes may apply.

       While DOJ is increasing the distribution of grants to Tribes, it has
recognized that only a fraction of the nation’s 563 federally recognized Tribes
traditionally submit grant applications to DOJ. In addition, many of the Tribal
organizations that apply for grants have inadequate accounting and
management infrastructure to properly account for the funds.

      As part of its efforts to expand the number of DOJ grants awarded to
Tribal organizations, DOJ asked the Office of the Inspector General (OIG) for
recommendations relating to Tribal grant management and oversight.
Recently, the OIG issued a report to DOJ on improving the overall grant
management process. That report includes recommendations for DOJ to
consider taking in an effort to help minimize waste, fraud, and abuse in grant
programs. This report focuses on grants to Tribes and provides our analysis
and recommendations on additional actions DOJ can take to promote the
overall effectiveness and integrity of DOJ funding awarded to Tribal
governments.

      The OIG based this report on our extensive audit and investigative
experience regarding Tribal grants and Tribal criminal justice issues. This
       1
         We currently are conducting an audit of Recovery Act funding provided through the
Bureau of Justice Assistance’s Correctional Facilities on Tribal Lands Grant Program.


                                             1

work has identified various concerns, both from Tribes and about the Tribes’
handling of funds.

OIG Audits of American Indian and Alaska Native Tribal Grants

      Over the years, the OIG has conducted several “internal audits” that
examined the overall effectiveness of DOJ Tribal grant programs and more than
60 “external audits” that examined specific Tribal organizations that received
DOJ grant funds.2 In addition, the OIG has conducted various criminal fraud
investigations related to misuse of Tribal grant money.

      In previous OIG audit work that examined Tribal grant programs and
grant recipients, Tribal representatives told us that historically they have not
received an equitable share of federal grant funds because: (1) they were not
adequately informed about grant funding available through DOJ, (2) grant
funding was not adequately coordinated among DOJ components, and (3) they
did not have the expertise necessary to prepare competitive grant applications.
DOJ officials said one goal of their initiative is to increase the percentage of
American Indian and Alaska Native Tribes who participate in DOJ grant
programs.

       Our past audit and investigative work raises two primary concerns that
we believe DOJ should consider when managing its Tribal grant programs:
(1) the need for coordination of all aspects of the Tribal grant program among
the three separate components of DOJ who award grants to Tribes and among
other federal agencies who award large amounts of grants to Tribes, and (2) the
need to provide assistance and oversight to Tribes with inadequate accounting
systems.

      The OIG has prepared this document to assist DOJ in its efforts to
improve its management of the Tribal grant process as it attempts to expand
the reach of grant programs to a greater number of Tribes.

Addressing Issues Stemming From Lack of Coordination

     DOJ grants to Tribes are administered by three separate DOJ
components, the Office of Justice Programs (OJP), COPS, and OVW. Within
OJP several different components, such as the Bureau of Justice Assistance

       2
           Internal audits assess overall grant program management in areas such as awarding
grants, monitoring grantees, and assessing program performance. External audits assess a
specific grantee’s compliance with grant conditions, including budget management and control,
drawdown and reimbursement requests, subgrantee oversight, matching funds, and financial
and program reporting.



                                             2

(BJA) and the Office of Juvenile Justice and Delinquency Prevention (OJJDP),
administer additional grants.

      We found in our past audit work that these grant-making agencies do
not consistently coordinate with each other when considering grant
applications and, historically, rarely consult with each other about prospective
grantees. As a result, the different DOJ components may not be aware that
they are awarding overlapping awards to the same Tribe for similar purposes.

      In addition, the components often do not share important information
about particular grantees who have been identified as high risk. We believe
that efforts to address Tribal governments’ criminal justice needs through DOJ
grants should include a clear process within DOJ to coordinate information
about grant applicants and awards.

       For example, we noted this lack of coordination in a 2005 OIG audit that
examined the administration of DOJ grants awarded to Native American and
Alaska Native Tribal governments. In its response to a recommendation in this
audit, DOJ established the Justice Programs Council on Native American
Affairs (JPCNAA) to serve as DOJ’s coordinating body to identify programs,
opportunities, and issues of concern to the Native American community.
JPCNAA was intended to facilitate information sharing among OJP, COPS, and
OVW about Tribal grant programs and grant monitoring, as well as to serve as
a forum to develop and provide training to staff responsible for administering
and monitoring Tribal-specific grant programs. In 2007, the JPCNAA created a
working group to focus on Tribal grants policy and training and technical
assistance.

      While we believe the establishment of the JPNCAA and the working group
was a positive step towards increased coordination, DOJ needs to ensure that
this working group is achieving its goal of increasing coordination.

      Moreover, even with a working group whose mission is to focus on Tribal
grant issues, coordination among DOJ components remains difficult because
responsibility for Tribal programs falls across several sub-components. For
example, the BJA has divided its Tribal-specific grant programs into the Tribal
Courts Assistance Program, the Indian Alcohol and Substance Abuse Program,
and the Correctional Facilities on Tribal Lands Program. The BJA informed us
during our 2005 audit that it was planning to combine these programs into a
Tribal Justice Assistance Grant Program to streamline the grant application
process and to minimize duplication of monitoring efforts. However, the BJA
ultimately decided not to create this program and still maintains these three
separate Tribal grant programs. We believe that DOJ’s decision not to combine
these three programs increases the need for the BJA to coordinate its three
grant programs and to coordinate with related grant programs managed by
other DOJ components.


                                       3

       We note that COPS, OJP, and OVW recently have initiated efforts with all
of their grant programs, Tribal and non-Tribal, to better communicate on grant
award issues through shared contact lists, training, meetings, and other
methods. For example, according to OJP, its Office of Audit, Assessment, and
Management (OAAM) has acted as the coordinator of the high-risk grantee
designation program for OJP and OVW since April 2009. In addition, OAAM
has shared the high-risk list and related documentation with COPS since April
2009. We believe that efforts such as these will help DOJ share information
about high-risk grantees, avoid awarding duplicative grants, and help ensure
that DOJ’s outreach efforts to grantees are consistent.

      However, it is important that DOJ’s coordination efforts include Tribal
Liaisons at U.S. Attorney’s Offices and non-DOJ agencies, such as the U.S.
Department of the Interior’s Bureau of Indian Affairs. By coordinating grant
management efforts among these organizations, DOJ granting components can
both increase the likelihood that relevant information about high-risk grantees
becomes known to other grant administrators and also eliminate duplicative
grants being awarded by separate agencies.

Oversight Issues Stemming From Weak Accounting Systems

      Appropriate accounting of the use of DOJ grant funds is a significant
challenge for many Tribes. We have observed in our previous audits and
investigations that many Tribes lack an adequate accounting system and are
unable to adequately segregate and track grant funds. This problem can be
exacerbated when the Tribe is in a remote location where it is difficult to hire
employees or contractors who have adequate backgrounds in accounting or
when the Tribe has experienced high staff turnover.

       In our experience, fraud is most likely to occur where the grantee has a
poor financial recordkeeping system, a lack of internal control structures, or
serious deficiencies in enforcing its internal controls. As a result, we believe
DOJ should recognize when it reaches out to Tribes who have never before
applied for DOJ grants that many of them may lack adequate accounting
systems and be at a higher risk for fraud, waste, or abuse.

      Therefore, we recommend that DOJ consider actions to ensure adequate
oversight of the funds it distributes. By improving its program solicitations,
grant applications, award process, and monitoring and training, DOJ can help
ensure that the Tribes improve their accounting systems and that DOJ has
adequate oversight of these funds.

Program Solicitations

       As noted above, in our previous audit work Tribal officials described
difficulties in obtaining DOJ grant funding. We also found that Tribes often


                                        4

did not have the technical expertise necessary to prepare competitive grant
applications. This made it difficult for Tribes to adequately describe how they
intended to use the grant funds they were seeking. While DOJ granting
agencies have attempted to address this concern through grantee conferences
and by distributing educational materials, as a threshold matter it is
important for a grantee to clearly describe how it plans to meet the grant
program’s objective.

       Thus, grant solicitations should clearly articulate program objectives
and requirements and include a description of the accounting standards that
will have to be met by the grant recipient. This will help reduce confusion
over the purpose of the program, what will be required of the grantee, and
how their performance will be measured.

Grant Applications

      The grant application is the primary tool available to granting agencies to
assess a Tribal government’s ability to successfully implement a project in
accordance with applicable laws, regulations, and program policies. The
application is also the vehicle for Tribal governments to make as compelling a
case as possible for obtaining the grant.

      While some Tribal governments are experienced grantees who employ
sophisticated grant writers, others may never have applied for a DOJ award.
To assist this latter category, DOJ could make available to new grant
applicants examples of “best practice” applications that illustrate what
information DOJ requires.

       In addition, DOJ grant administrators can use the application process to
identify potential “red flags” for granting agencies to follow up prior to making
the awards. These can include: (1) an assessment of a Tribal government’s
internal controls over grant funds; (2) a review of prior audit findings or open
investigations; (3) requiring submission of a plan for collecting and supporting
financial and performance data; (4) a thorough evaluation of the Tribal
government’s accounting and financial systems, utilizing OJP’s financial
capability questionnaire; and (5) a review of the Tribal government’s
record-retention policy. This risk-based grant award approach enables
granting agencies to identify Tribal governments that are in a position to best
complete the grant objectives in a timely, cost-effective, and accountable
manner.

      For example, our audits often have found that Tribal grantees do not
maintain timesheet documentation for personnel costs. To address this
potential shortcoming, the application process could either require applicants
to provide verification that timesheets for all personnel are maintained to


                                        5

document hours worked for grant and non-grant related activities, or require a
similar mechanism to ensure adequate accounting for personnel costs.

Award Process

       To promote transparency in the award process, granting agencies should
clearly document key aspects of the process, such as the: (1) basis for
noncompetitive awards, (2) peer reviewers’ agreement with the peer review
consensus report, (3) basis for award selections that differ from peer review or
program manager recommendations, and (4) procedures used to identify and
remedy conflicts of interest among agency staff and external experts involved in
the peer review process. In May 2008, in a response to an OIG audit
recommendation, the Associate Attorney General directed the heads of each
DOJ granting agency to document the reasons for specific award decisions that
were not based strictly on peer reviews. The new guidance still allows DOJ
grant agency officials to use discretion to select awardees, but the officials
must justify and document the reasons for awarding grants to lower-scoring
applicants over higher-scoring applicants. It is important that granting agency
officials adhere to this requirement to ensure that awards decisions are fair
and transparent.

      In addition, to decrease the risk of unknowingly awarding funds to a
high-risk Tribal grantee, we recommend that DOJ consider establishing a DOJ-
wide procedure that allows granting agencies to share information on high-risk
grantees prior to awarding funds. Granting agencies should also consider
requiring special conditions for high-risk grantees, such as maintaining
separate bank accounts for each award the grantee has received. These types
of special conditions would make use of grant funds more transparent and
reduce a grantee’s ability to hide improper use of grant funds.

      We also recommend that granting agencies determine a Tribal grantee’s
progress on implementing prior grants before awarding additional grants for
similar purposes.

       It is also important for granting agencies to establish criteria to gauge the
potential risk associated with new Tribal grantees. In doing so, we believe
granting agencies should conduct background checks to verify proper payment
of withholding taxes, credit standing, and other indicators of problems. In
addition, granting agencies should conduct Internet searches or other reference
checks to identify negative information that should be considered prior to
granting an award. In circumstances where the grantee is not a Tribal
government but rather a non-profit or other organization closely linked to a
Tribe, granting agencies should coordinate these awards with Tribal leadership
to ensure the Tribe is aware of the grantee and can provide additional oversight
as necessary.



                                         6

      Moreover, granting agencies should consider open OIG audit and
inspections reports to determine whether a grantee’s progress in implementing
corrective action is sufficient to merit its receiving additional grants. In
addition, as discussed in our report on improving the grant management
process, granting agencies should check to make sure there are no ongoing
OIG or other criminal investigations before making awards.

Monitoring

      Proper monitoring of grant programs helps ensure that program funds
are meeting program objectives. Monitoring also holds grantees accountable to
the terms and conditions of the awards.

      For high-risk grantees, granting agencies should consider the use of
special monitoring conditions such as requiring: (1) third-party management
of grant funds so that all expenditures are authorized and completed by a third
party with no vested interest in the grantee, (2) authorization to proceed with
the next phase of a project based on evidence of acceptable performance, and
(3) more detailed financial reports.

       In addition, DOJ’s granting agencies should consider the use of regulated
purchase cards for distributing grant funds to grantees considered high risk.
These cards can include restrictions on certain purchases based on dollar
limits and vendor codes. Use of these cards could be monitored by Tribal
leaders, DOJ grant managers, and other appropriate parties to identify
transactions that are inconsistent with the objectives of the grant program or
are otherwise unusual. These types of controls may help prevent and detect
misuse of grant funds.

      Granting agencies should also consider requiring Tribal grantees,
especially those designated as high risk, to provide supporting documentation
such as receipts, timecards, and invoices related to a randomly selected
drawdown request or Financial Status Report to demonstrate that they have
adequate supporting documentation related to these transactions. This
procedure can assist in early identification of grantees that may require
technical assistance or other forms of oversight.

       Moreover, granting agencies should increase their monitoring of high-risk
Tribal grants through sufficient site visits and review of financial and progress
reports for accuracy, completeness, and alignment with project goals. In turn,
significant findings should be shared with other granting agencies. This
practice is particularly important for new grantees and grantees with past
problems managing grants.




                                       7

      In addition, it is important that granting agencies develop a process to
ensure that all instances of alleged misuse of grant funds are documented and
timely reported to agency authorities and the OIG.

Training

       In previous OIG audits, we concluded that DOJ has not effectively
implemented training programs to address the unique issues related to Tribal
governments. In our judgment, DOJ should establish a process to train staff
responsible for administering and monitoring Tribal-specific grant programs.
We believe such training should be provided at least annually and focus on:
(1) the wide range of issues specific to Tribal governments; (2) cultural
awareness, including the history of the relationship between the federal and
Tribal governments; (3) the sovereign status of Tribal governments; and (4) the
jurisdictional complexities and limitations in Indian Country.

      In addition, key Tribal officials (such as the Tribe’s Chief Financial Officer
and the individual submitting Financial Status Reports) should be given
annual grant administration training that covers financial and programmatic
requirements and fraud awareness. This training could be implemented
through an interactive, on-line training program that assesses the grantee’s
understanding of basic grant requirements.

      For example, OJP in cooperation with COPS and OVW, hosted a seminar
on the Internet to instruct grant applicants on specific Recovery Act reporting
requirements. This training was intended to supplement the Office of
Management and Budget’s existing guidance on recipient reporting. This
webinar provides a good example of how DOJ could implement such training in
other areas, such as for Tribal grantees.

      Granting agencies should also provide opportunities for Tribal grant
administrators to discuss questions and problems to ensure consistent
treatment by the granting agencies. These opportunities for feedback and
discussion can also serve as a tool for developing future training topics.

       For example, in past reviews we have noted that many Tribes have
challenges arising from related-party transactions, such as hiring family
members or buying goods and services from a vendor where there is less than
an arm’s length between the buyer and the seller. Related party transactions
can cause conflict-of-interest issues in both appearance and fact. Through
training, grant administrators can be made aware of this issue and of the need
for Tribal grantees to ensure that all potential conflict-of-interest issues are
appropriately disclosed and reviewed.

     We note a recent example in which DOJ held this type of training. In
August 2009, OJP, COPS, and OVW hosted an “Interdepartmental Tribal


                                         8

Justice, Safety, and Wellness Conference” in Oklahoma with the Department of
Interior, the Department of Housing and Urban Development, and others to
address Tribal grant issues such as grant writing, effective criminal justice
strategies, and program and grants management practices. At the invitation of
OJP, the OIG Investigations Division gave a presentation to the Tribal members
attending the conference on grant fraud prevention and detection. In
December 2009, DOJ coordinated a similar Tribal justice conference in Alaska
and is planning to hold other such events in the future. We believe that DOJ
should continue to routinely hold these types of sessions in order to educate as
many potential Tribal grantees as possible. By holding information-sharing
sessions with Tribal grantees that focus on responsibilities, accountability, and
performance expectations, granting agencies encourage adherence to the terms
and conditions of grant programs.

Conclusion

      As DOJ increases it outreach to Tribes to encourage them to participate
in DOJ’s Tribal grant programs, it is important that it also increase its efforts
to provide adequate training and oversight for this initiative. Our past audit
and investigative work indicates that DOJ should focus on increasing the
coordination of its Tribal grant programs, both within DOJ and with external
agencies, and on providing assistance and oversight to Tribes with inadequate
accounting systems. We have described a series of potential steps DOJ should
consider regarding DOJ’s program solicitations, grant applications, award
process, and monitoring and training of Tribal grantees. By implementing
these recommendations, DOJ can help ensure that it improves the Tribal grant
process, ensures appropriate use of grant money, and exercises sufficient
coordination and oversight of Tribal grant funds.




                                        9

